Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Placer County Sheriff's Department
Auburn, California

GR-90-03-001


October 2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Placer County Sheriff's Department (PCSD).  The purpose of the grants is to enhance community policing.  The PCSD was awarded $1,285,594 to hire 12 new deputy sheriffs and redeploy the equivalent of 14.3 existing full-time deputy sheriffs to community policing.
We found the PCSD to be in compliance with COPS' grant requirements.  We reviewed the PCSD's compliance with seven essential grant conditions and found no weaknesses in each of the areas we tested:  budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, retention of officer positions, officer redeployment, and community policing.
Our audit objectives, scope and methodology appear in Appendix I.